                      McGregor W. Scott
                     United States Attorney
                     Eastern District of California                           NEW S RELEASE
                     Sacramento                                                 Fresno
                     501 I. Street, Ste 10-100                                  1130 O. Street, Rm 3654
                     Sacramento CA 95814                                         Fresno, CA 93721
                     (916) 554-2700                                             (559) 498-7272


FOR IMMEDIATE RELEASE                                              Contact: Patty Pontello, 916-554-2706
July 19, 2005                                                      http://www.usdoj.gov/usao/cae/home/

                                     OPERATION SAFE PILOT

    40 AIRPLANE PILOTS CHARGED ACROSS 5 MAJOR CALIFORNIA CITIES
        IN CRIMINAL AIR TRAFFIC SAFETY INVESTIGATION JOINTLY
            SUPERVISED BY THE UNITED STATES ATTORNEYS IN
            EASTERN AND NORTHERN DISTRICTS OF CALIFORNIA

      Defendants charged with lying to the Federal Aviation Administration about
 disqualifying medical conditions and criminal histories in order to obtain pilot’s licenses.

                     Operation targeted “most blatant” instances of fraud.

         SACRAMENTO--McGregor W. Scott, United States Attorney for the Eastern District of
California; Kevin V. Ryan, United States Attorney for the Northern District of California;
Kenneth M. Mead, Inspector General, U.S. Department of Transportation; Patrick P. O'Carroll,
Jr., Inspector General, Social Security Administration and Marion C. Blakey, Administrator of
the Federal Aviation Administration announced today the results of Operation Safe Pilot, an 18-
month investigation into the falsification of medical records required by the Federal Aviation
Administration to secure airplane pilot’s licenses. While claiming to be medically fit to fly an
airplane, the defendants were also collecting disability benefits from the Social Security
Administration based on serious medical and psychological conditions which would have
prevented them from operating an aircraft.

       This operation is the product of an extensive investigation jointly conducted by the U.S.
Department of Transportation’s Office of Inspector General and the Social Security
Administration’s Office of Inspector General - San Francisco Region. The Federal Aviation
Administration and the Social Security Administration assisted the two criminal investigative
agencies. In the Eastern District of California, Assistant United States Attorneys Carolyn K.
Delaney and Marlon Cobar are the prosecutors in this operation. In the Northern District of
California, Assistant United States Attorneys Jeffrey R. Finigan and Gary G. Fry and Special
Assistant United States Attorney Candice Jan are the prosecutors assigned to the operation.
       Comments from Federal Law Enforcement

         McGregor W. Scott, United States Attorney for the Eastern District of California stated,
“This operation underscores the Department of Justice efforts to ensure transportation safety as
one component of homeland security.” United States Attorney Scott added, “In conjunction with
our federal law enforcement partners, this office is committed to safeguarding the integrity of our
air traffic safety system.”

        Kevin V. Ryan, United States Attorney for the Northern District of California said “Air
transportation safety and the protection of our airspace are of paramount importance to our
security. As demonstrated in Operation Safe Pilot, the Department of Justice and my office
remain committed to ensuring safe skies through productive collaborations with other federal
agencies. I wish to thank all of the federal agencies, U.S. Attorney’s Office for the Eastern
District of California, U.S. Department of Transportation's Office of Inspector General, Social
Security Administration’s Office of the Inspector General, the Federal Aviation Administration
involved in this operation.”

        Said U.S. Department of Transportation's Office of Inspector General Kenneth M. Mead,
“Safety is the Department of Transportation's top priority.” Mead added that, “Pilots who
provide false information about their health to the FAA on their medical certification not only
violate the law, but could pose potential threats to safety as well.”

        Social Security Administration Inspector General Patrick P. O'Carroll, Jr. stated, “As one
participant in the national law enforcement effort to maintain homeland security, the SSA-OIG is
gratified to see this operation come to a successful conclusion.” O'Carroll added that, “The SSA-
OIG will continue to work with U.S. Attorneys and our law enforcement partners on similar
projects to ensure that misused Social Security numbers do not aid those seeking to commit other
crimes or threaten the security of our nation.”

        Said FAA Associate Administrator for Aviation Safety, Nicholas Sabatini, “The fraud
and falsification allegedly committed by these individuals is extremely serious and adversely
affects the public interest in air safety.” Sabatini added that, “The FAA has cooperated closely
with the Department of Transportation’s Office of Inspector General at every phase of its
investigation and has begun revoking the Airman and Medical Certificates of those individuals
found to have falsified their certificate applications.”

        The Charges

         Grand Juries for the Eastern and Northern federal judicial districts of California, sitting in
the cities of Sacramento, Fresno, San Francisco, Oakland and San Jose, returned indictments
charging 30 defendants with violations of Title 18, United States Code, Section 1001 - False
Statements to a Government Agency. Federal prosecutors have also charged 10 additional
defendants with similar criminal violations, including Title 18, United States Code, Section 1018
- Making and Delivering a False Official Writing. As appropriate, arrest warrants or summonses
to appear for initial appearances in the coming days have been variously issued by the U.S.
District Courts in the Eastern and Northern Districts of California. The charges arising from this
operation are only allegations and the defendants are presumed innocent until and unless proven
guilty beyond a reasonable doubt.

       The Investigation

        Beginning in July 2003, Department of Transportation Office of Inspector General
(DOT-OIG) and Social Security Administration Office of Inspector General (SSA-OIG)
launched a joint effort to identify the misuse of Social Security numbers by pilots operating with
Federal Aviation Administration (FAA) certificates in the interest of promoting both safety and
security. During the investigation, agents identified numerous pilots who were receiving Social
Security disability benefits. Concerned for aviation safety and fraud implications with the Social
Security disability benefits program, DOT-OIG and SSA-OIG launched Operation Safe Pilot in
coordination with the United States Attorney’s Offices for the Eastern and Northern Districts of
California.

        Operation Safe Pilot began with a review of 40,000 pilots residing in the northern half of
the State of California. Federal agents identified numerous pilots with current flight medical
certificates, who were receiving disability benefit payments. Although the operation identified
pilots who claimed to be suffering from an array of illnesses, agents focused only on the most
egregious claims of disabilities. The illnesses ranged from schizophrenia, bipolar disorder, drug
or alcohol addiction, disabling back condition, or the presence of severe heart condition.

        Federal Agents selected the most blatant instances of fraud which totaled 40 pilots. Of
those 40 pilots, a number were airline transport and commercial pilots, as well as medical
doctors. DOT-OIG and SSA-OIG then presented this list to the United States Attorneys Offices
for the Eastern and Northern Districts of California for criminal charges. These pilots committed
fraud when they failed to report on their FAA Medical Airman’s Certificates that they suffered
from a disabling condition. The Medical Airman Certificate is the key document to obtaining
and maintaining an active FAA pilot’s license. In addition to those pilots claiming they had
disabling conditions, other pilots were identified for having failed to report that they had prior
criminal convictions. This too constituted fraud committed by these pilots.

        In every case, the pilots failed to notify the FAA about their medical conditions when
completing their FAA medical applications. In addition, the pilots failed to disclose their flight
medical examination results to the SSA. Through this failure to disclose FAA’s determination
that they were fit to fly, some of the defendants also fraudulently obtained disability benefits
from SSA. To insure that the disabilities claimed by the 40 pilots would have disqualified them
from obtaining an FAA Medical Airman’s Certificate, investigators coordinated their findings
with the FAA’s Western Pacific Region Aerospace Medicine Division. FAA’s medical staff
determined that all disabilities claimed by the pilots might or would have disqualified them from
obtaining a Medical Airman Certificate had they disclosed those medical conditions to the flight
surgeons during their FAA medical evaluations.

       Following the Aerospace Medicine Division’s review, FAA has performed administrative
immediate Emergency Revocations of 14 pilots’ licenses and medical certificates. In addition to
the 14, FAA has notified the remaining pilots in this operation that their pilots’ licenses and
medical certificates may be suspended based on the falsification of their FAA Medical Airman
Certificate by failing to report their disabling conditions to FAA flight surgeons and on their
FAA Medical Certificates. In addition to the 40 defendants criminally charged in this operation,

DOT-OIG and SSA-OIG have referred two pilots for prosecution to the United States Attorney’s
Office for the District of Nevada in both Las Vegas and Reno.

       The Defendants

       The pilots charged in this operation are listed below.

Jorma Aaltonen, Rocklin, CA, 69
Michael Ascarte, Fresno, CA, 30
Amy Aucutt, San Francisco, CA, 36
Calvin Bartholomew, Salinas, CA, 55
Daniel Battershell, Brownsville, CA, 52
Mark Boyd, Antioch, CA, 41
Frank Buckenmeyer, Galt, CA, 26
Edward Calcote, Chico, CA, 64
Stanmore Cooper, San Francisco, CA, 63
David Cunningham, Salinas, CA, 25
Thomas Darrow, Pacifica, CA, 56
Kenneth DeBolt, Sonora, CA, 58
Arnold Dolgins, Felton, CA, 61
John D'Onofrio, Caliente, CA, 36
Walter Fraser, Lower Lake, CA, 55
Kenneth Gulick, St. Helena, CA, 61
Darrell Haskin, Georgetown, CA, 59
Kenneth Ingram, Kauai, HI, 51
Robert Jameson, Wasco, CA, 61
Russell Johansen, Sacramento, CA, 61
Ward Joiner, Loomis, CA, 54
Kenneth Jones, Pittsburg, CA, 52
Raymond Jones, Sacramento, CA, 56
Lynn Jorgensen, Blackhawk, CA, 52
Dr. James Katzel, Ukiah, CA, 59
Roger Lebichuck, Santa Rosa, CA, 56
Robert Lessman, Sacramento, CA, 68
Gregory Moeller, Rescue, CA, 58
Dr. Roger Musso, Greenwood, CA, 60
Michael Pennington, Susanville, CA, 55
Karl Redmon, San Leandro, CA, 40
Harold Sanborn, Wasco, CA, 54
Kirk Smeltzer, Fresno, CA, 46
Robert Silva, Roseville, CA, 45
Althea Stevens, Corning, CA, 62
Jeff Stump, Kentfield, CA, 39
Susan Tobin, Pacifica, CA, 58
Timothy Voors, Grass Valley, CA, 55
Leroy Wachsmuth, Trinity Center, CA, 71
Daniel Woodhurst, Red Bluff, CA, 61

       Further Information:

       A copy of this press release and related court filings may be found on the U.S. Attorney’s
Office’s website at www.usdoj.gov/usao/can or http://www.usdoj.gov/usao/cae/home/.

       All press inquiries to the U.S. Attorney’s Office should be directed to Patty Pontello at
(916) 554-2706, or Luke Macaulay at (415) 436-6757 or by email at
Luke.Macaulay3@usdoj.gov.

                                               ###
